                                                           The Inspector General              Office of Inspector General
                                                                                              Washlngton. D.C. 20590




January 25,2008


INFORMATION MEMORANDUM TO THE DEPUTY SECRETARY


mom:                       Calvin L. ~covelIII
                           Inspector General
                                                     C.           . &v&I-=
                           X61959

Prepared by:               Jim Crumpacker
                           Director, National Investigative Programs
                           X61420

Subject:                   Office of Inspector General Review of the Department's Analysis of
                           the Washington Nationals' Parking Proposal



SUMMARY

This Memorandum presents the results of our review of the U.S Department of
Transportation's (DOT)analysis of a proposal by Major League Baseball's Washington
Nationals (the Nationals) to obtain gamaday parking privileges in DOT Headquarters'
underground parking garage, which is approximately two blocks away fiom the Nationals'
new baseball stadium-Nationals Park. Specifically, the Nationals want access to DOT
paking spaces1 during the baseball season to allow selected season ticket holders with valid
Federal government identification cards to park 2 hours befo~eand after 81 home games,
beginning with the first game on March 30, 2008, and including the playoffb through
October, as applicable?

We found that the DOT'S Office of Security (DOTfOS) d y s i s sufficiently addressed risk
management-related factors identified by the U.S. Department of Homeland Security
PHs), which focus on assessing threats, vulnerabilities, and consequences. For example,
DOT/OS considered two risk assessmentwne prepared by the Federal Protective Service
(FPS) and the other by a contractor-when considering threats against DOT Headquarters.
           -




' The DOT undaground parking garage has marked spaces for 972 vchiclar, of which 151 ere resaved primarily lk
  govanment vehicles. This leaves 821 spaces that are used by DOT employeea who carpool or pay a monthly or daily
  fee. An additional 88 vehicles could be padad in the garage if "stacked" (La, parked perpendicular d k d y behind
   vchicles in the marked sp9ces).
  It was not clear whctha the proposal was intended only for the 2008 baseball seeson or also successive seesons.

                                             FOR OFFICIAL USE ONLY
                (Public availability to be determined under 5 U.S.C.552, Freedom of Initmation Act)
               FOR PUBLIC RELEASE -ALL REDACTIONS MADE PURSUANT TO FOlA EXEMPTION 2
In addition, DOTIOS personnel adequately considered U.S. Department of Justice (DOJ)
and other relevant Federal building security criteria and consulted with other Federal
agencies, as appropriate, in conducting their analysis of the Nationals' proposal.

According to DOTIOS, its primary day-to-day risk management objective is to minimize
any risks to the performance of DOT'S essential missions. Its analysis of the Nationals'
proposal identified numerous security, logistical, and cost concerns, which the Secretary
has the responsibility and authority to determine how best to address and mitigate.

From a security perspective, DOT/OS determined that the proposal was unworkable
without significantly increasing guard services3 and expanding security operations. And
even if such measures were implemented, DOT personnel and resources would still face
increased risks without any benefit to DOT'S missions. Because of limited historical data
and the inherent uncertainties in risk assessment, DOTIOS and other Office of the Secretary
officials had to apply policy and analytic judgments in reaching their conclusions. We
found no basis to take exception with those judgments.

However, we also found that DOTJOS did not filly research and quantify the logistical and
cost concerns identified by their analysis because they considered security paramount and
did not believe their tasking required or permitted longer tenn detailed analysis. In our
opinion, these concerns, as well as the others we identified, represent significant additional
challenges to implementing the proposal--even if security concerns can be addressed and
mitigated. For example, increased vehicle congestion in the DOT garage during 54 of 81
games occurring weekdays would almost certainly adversely affect normal DOT day-today
operations.

Finally, we found that DOTIOS did not consider options for implementing all or part of the
Nationals' proposal because, according to DOTJOS personnel, they believed their role was
to evaluate the proposal, not develop alternatives to it.

BACKGROUND
On March 23, 2007, Delegate Eleanor Holmes Norton provided the Secretary of
Transportation a copy of the Nationals' parking proposal for review and comment. In an
April 17,2007, response, the Secretary informed Delegate Norton that DOT could not agree
to the proposal, given the Department's obligation to ensure the safety and security of DOT
personnel and resources. The Secretary based her decision in part on the analysis of
professionals in DOTIOS, which is responsible for personnel and physical security of DOT
Headquarters. DOT/OS identified numerous security, logistical, and cost concerns with the
proposal.
On November 20, 2007, you asked -the Office of Inspector General (OIG) to perform an
independent review of this analysis. Our overall objective was to determine whether
DOT/OS had appropriately considered factors relevant to the Nationals' proposal. In


 Guard s d c c s for DOT H c a d q u m are provided by contract.

                                              FOR OFFICIAL USE ONLY
                 (Public availability to be danmined under 5 U.S.C. 552, Freedom of ~nhnaticmAct)

               FOR PUBLIC RELEASE -ALL REDACTIONS MADE PURSUANT TO FOlA EXEMPTION 2
reviewing the concerns identified by DOT/OS, we focused on: (1) the applicability and
requirements of current Federal building security criteria; (2) the extent to which the
Department consulted with other Federal agencies having expertise on the issues in
question; and (3) the suf£iciency of the Department's evaluation of available options for
implementing all or part of the Nationals' proposal.

Based on a delegation of authority that DHS has provided through FPS, the Secretary of
Transportation is solely responsible, without limitation, for protecting DOT Headquarters
(including its underground parking garage). This includes identifying building access
requirements and procedures and monitoring the use of contract guard services. Exceptions
include the conduct of physical security surveys, crime prevention assessments, and
awareness programs-and as required by law, Exmtive order, or regulations.

According to the U.S. Government Accountability Office, risk management has been
widely practiced for years in areas such as insurance, construction, and finance. By
comparison, its application in homeland security is relatively new. Risk management is an
analytical process employed to consider the likelihood that a threat will hann an asset or
individuals and to identify actions to reduce the risk and mitigate the consequences of an
attack or event. Risk management principles acknowledge that while risk generally cannot
be eliminated, enhancing protection fiom known or potential threats can reduce it.

In reviewing DOT'S analysis of the Nationals' proposal, we used a DHS risk management
h e w o r k , which considers threats, vulnerabilities, and consequences. (See the Figure
below). This general approach is used or endorsed by Federal agencies, government
commissions, and multi-national corporations.

             Figure: DHS Risk Management Framework
            r                                                                  1




                                ANAG




                 Source: DHS National Infrastructure Protection Plan 2006

RESULTS
Security Analysis Adequately Considered Risk Management Priuciples

The DOTIOS analysis identified numerous concerns with the Nationals' proposed use of
the DOT Headquarters garage-concems that DOT officials believed created unnecessary
risks to the perfomance of DOT'S essential missions. In response to your request, we
reviewed the extent to which the analysis addressed the DHS risk management-related

                                             FOR OFFICIAL USE ONLY
                (Public availability to be detamkd under 5 U.S.C.552, F d o m of I n f d o n Act)

             FOR PUBLIC RELEASE - ALL REDACTIONS MADE PURSUANT TO FOlA EXEMPTION 2
factors of threats, vulnerabilities, and consequences. Specifically, we reviewed Federal
guidance on risk management and detailed risk assessments and spoke with DOT officials:
FPS personnel, and General Services Administration representatives who could provide
substantive feedback on the proposal and analysis.

Assessing and responding to threats, vulnerabilities, and consequences are hdamental to a
risk management approach. While the underlying concepts are easy to identify, applying
them is difficult in practice. For example, assessing threats is an uncertain process, and
limited historical data are available to assess the probability of various types of risk. As a
result, assumptions and policy judgments must be used in risk assessment and management.
Although the DOTIOS analysis was not summarized using the DHS risk management-
related factors of threats, vulnerabilities, and consequences-no requirement exists to do
this-we were able to determine through our discussions with responsible officials and
review of documentation that the analysis considered these factors. Overall, we concluded
that DOTIOS's analysis adequately considered DHS risk management-related factors.

Provided below is a short discussion of DOT/OS's analysis of each DHS risk management
factor.

Deter Tirreuts Threat is the actual or perceived source of an attack. A threat assessment is
used to evaluate the likelihood of terrorist or other hostile activity against a given asset. It
is a decision-support tool that helps to establish and prioritize security program
requirements, planning, and resource allocations. The DOT/OS analysis concluded that
allowing selected season ticket holders with valid Federal government identification cards
to park in the DOT Headquarters underground parking garage unnecessarily increased
threat to the safety and security of DOT personnel and resources while providing no benefit
to DOT'S essential missions.

We found that DOTIOS personnel adequately considered available threat information in
conducting their analysis of the Nationals' proposal. For example, the DOT/OS analysis
considered two risk assessments specifically prepared to address, in part, threats against
DOT Headquarters. One contractor-prepared assessment included detailed information of
the various threats based on a review of available documentation and interviews of key
personnel h m the Federal Bureau of Investigation (FBI) Joint Terrorism Task Force and
the Bureau of Alcohol. Tobacco. Firearms and Exnlnsivm
                                       REDACTED
                                                          The assessment also identified
that the area around DOT Headquarters had e high-crime index.'



' These officials were from various DOT offices, including the Offices of Security, G a r d Counsel, and F i c i a l
  Management and Transit Benefits Programs.
  Crime indexes are used to analyze crime statistics for selected o f b s a , including murd~,forcible rape, robbay,
  aggravated assault, burglary, and larceny-thdt, and gauge fluctuations in the volume and rate of crime nqxnted to law
  enfomacnt in a particular locality.

                                              FOR OFFICIAL USE ONLY
                 (Public availability to be dctaminad unda 5 U.S.C.552, Freedom of Information Act)

                FOR PUBLIC RELEASE -ALL REDACTIONS MADE PURSUANT TO FOlA EXEMPTION 2
FPS prepared the other assessment, which examined the risks of a vehicle bombindt~orist
attack against DOT.

                                                 REDACTED

                                                                                       In
considering possible threats related to the Nationals' proposal, DOT/OS p a s o d also
coordinated with FPS and the FBI to ensure they considered current threat information.

Mifig& Vutnerubilia'es. Vulnerability is the degree to which a facility is susceptible to a
threat. A vulnerability assessment is a process that identifies weaknesses in physical
structures, personnel protection systems, processes, or other areas that may be exploited by
terrorists or others and may suggest options to eliminate or mitigate those weaknesses.
Although DOTJOS did not conduct a vulnerability assessment specific to the Nationals'
proposal, it did use a DOJ vulnerability assessment6-as well as other federally recognized
security design criteria-to consider what vulnerabilities might be introduced by allowing
non-DOT employees access to the DOT Headquarters underground parking garage to
attend Nationals baseball games.

We found that DOT/OS personnel adequately considered the DHS risk management-related
factor of vulnerabilities in analyzing the Nationals' proposal. For example, the DOJ
vulnerability assessment study DOTIOS used is relied on as a government-wide security
standard for Federal facilities. This study identifies five different security levels for
assessing security needs, with Level V facilities requiring the strictest security standards?
DOT Headquarters is considered a Level IV facility because it has more than 450 Federal
employees and is more than 150,000 square feet in size.8 Per these criteria, satisfying the
minimum security requirements for Level IV facilities includes controlling facility parking
by limiting parking where possible to Federal government vehicles and personnel.

DOT/OS also considered s d t y design criteria9 promulgated by the U.S. Interagency
Security Committee (ISC)," which establishes construction and other standards for Federal
government facilities requiring blast resistance or other specialized security measures. For
                                                   REDACTED



  Refaace "Vulndility Assessment of F e d 4 Facilities," U.S. Department of Justice, June 28, 1995.
' These are fircilities, such as the Patagon and Central Intelligence Agency Headquarters, that contain mission functions
   critical to national security.
  Nearly 6,000 people work at DOT Headquarters, and the buildings are approximately 1.4 million square fcet in size.
  M a a r c e "ISC Security Dtsign Criteria for New Federal Office Buildings and Major Modanization Projects," ISC,
   updated Septunk 29,2004.
'O ISC was created after the bombing of the Alfiad P. Munah Fedael Building in Oklahoma City, Oklahoma,and the first
   bombing of the World Trade Carter in 1993. The cammittee apaates within the Federal government's executive
   branch and consists of the Resident and heads of nearly 20 major dqmrbnmts and agencies of the U.S.p v ~ n m e n t
   The committeeis chaired by the Diream of FPS; DOT is one of the member departmmts.

                                              FOR OFFICIAL USE ONLY
                 (Public availability to be deLamined under 5 U.S.C.552, F d o m of Information Act)

                FOR PUBLIC RELEASE -ALL REDACTIONS MADE PURSUANT TO FOlA EXEMPTION 2
                                           REDACTED



In its risk assessment of DOT Headquarters, FPS recommended that the ISC ,DACTE
protection criteria be used. DOT strives to maintain this level of protection by only
allowing individuals who work at DOT Headquarters to park in the garage. In fact, with
rare exceptions, even visitors to Headquarters with a valid DOT business purpose are not
allowed to park in the garage. Our discussions with FPS personnel c o h e d the
appropriateness of DOT/OS using the aforementioned DOJ and ISC criteria in assessing the
Nationals' proposal.

In addition, DOT/OSYsanalysis noted that limiting baseball-related parking to "season
ticket holders who have valid Federal government identification cards" would not
necessarily guarantee adequate security,

                                                 REDACTED


Minimize Consequences. Consequences, in the context of homeland security, are the
negative effects of an attack. They include death, injury, economic impacts, loss of public
confidence, and loss of government capability. The DOTIOS analysis of the Nationals'
proposal concluded that ev6n if theprobability of an occwrence was low fbm the increased
threat the plan introduced, the consequences to the safety and security of DOT personnel
and resources and consequently the performance of DOT'S missions remained high.

We found that DOT/OS personnel adequately considered the DHS risk management-related
factor of consequences when analyzing the Nationals* proposal. For example, DOTIOS
relied, in part., on a contractor-prepared risk assessment of DOT Headquarters. This
assessment assigned criticality ratings1             '


                                                     REDACTED




" These ratings provide a means by which to assess the impact that damage or loss would have on a facility's or
  oganization's capability to pufoxm its missions.

                                             FOR OFFICIAL USE ONLY
                (Public availability to be determined under 5 U.S.C. 552, Freedom of Information Act)

               FOR PUBLIC RELEASE - ALL REDACTIONS MADE PURSUANT TO FOlA EXEMPTION 2
                                             REDACTED




DOT/OS also considered the impact of an explosives blast from within the garage and

                                             REDACTED


Logistical and Cost Challenges Complicate Implementation of Nationals'
Proposal
In addition to security concerns, DOT/OS personnel identified numerous logistical and cost
concerns with the Nationals' parking proposal. However, DOT/OS did not l l l y research or
quantifl these concerns because they considered security paramount and did not believe
their tasking required or permitted longer term detailed analysis. In our opinion, these
concerns and others we identified represent significant additional challenges to
implementing the proposal if a decision should ever be made to revisit the use of the DOT
Headquarters underground garage for baseball-related parking.

For example, the issue of whether, and to what extent, DOT might be liable for the actions
of the selected season ticket holders who would be allowed to park at DOT Headquarters is
unclear. We noted that the Nationals' proposal did not specifically address liability and
indemnification in the event that a Nationals season ticket holder using the garage commits
a tort or criminal infraction, such as an accident that injures people or damages private or
government vehicles. In addition, allowing use of the garage for a non-DOT business
purpose may also subject DOT to potential litigation resulting fiom any adverse
consequences of that use or h m allegations of disparate, preferential treatment by other
third parties also wanting to use the garage. Several other significant logistical and cost
concerns are outlined below.

Ability to Accommodate Increased Vehicle Congestion in the Garage Would Aged DOT
Operations DOTIOS analysis identified parking garage access and t d l i c management
issues as a logistics concern but did not full research or quantify these issues. The
Nationals' proposal envisions use of DOT Headquarters parking for 81 home games, 54 of
which occur during weekdays and would almost certainly negatively affect normal DOT
day-to-day operations. We found there is only one vehicle entry and exit point for the
 1,060 space garage, and DOT core weekday working h o d : 3 0 am. until 6:30 p.m.-
directly conflict with the times the Nationals sought use of the garage for these games.

Specifically, the Nationals' proposal sought use of the garage 2 hours before and after
games. Most of the 54 games that occur during weekdays are scheduled to begin at 7:10
p.m., which means that baseball fans parking at DOT Headquarters would start arriving at
5:10 p.m. We also noted three weekday afternoon games on the Nationals schedule that

                                          FOR OFFICIAL USE ONLY
             (Public availability to be detamincd under 5 U.S.C. 552, F d o m of Information Act)

            FOR PUBLIC RELEASE -ALL REDACTIONS MADE PURSUANT TO FOlA EXEMPTION 2
would have fans arriving to use the garage as early as 11:35 am.,1:05 p.m., and 2:35 p.m.,
respectively.

In addition, we found that the DOT Parking Oflice has already received more employee
applications to park in the garage than they can approv6-1,628 applications received with
1,350 parking permits issued12 as of January 16,2008-which meam the garage will likely
be 111 most weekdays. Performing security inspections of nearly 1,000 vehicles for
baseball fans trying to access the parking garage with possibly the same number of DOT
employees trying to exit the garageat the same time through the same entrance-would
almost assuredly create a tremendous strain on garage operations and possibly result in
"gridlock." This would especially be true when parking garage valets were needed to
retrieve "tandem" or "stacked" vehicles.I3
                                                  1



In addition, DOTIOS's analysis of the Nationals' proposal noted that the presence of non-
DOT personnel in the parking garage could adversely affect DOT mission-critical activities
during increased national security threat levels and other times when the Department's
Crisis Management Center may be activated, which could occur at any time on weekdays or
weekends.

Ability to Use lkisthg Security Contract for Increased Guard Services Unclear and
Alternatives Have Not Been &plored DOTIOS analysis identified the need to increase
guard services but did not hlly research or quantify the issue. Our review identified that
the DOT contract for Headquarters security services may require modification,
renegotiation, or recompetition should DOT later decide to implement the National's
proposal. Specifically, it is unclear under what circumstances this contract could be used to
provide and pay for increased s d t y services related to the proposal, and alternatives have
not been identified nor the costs quantified.

For example, the contract states that the contractor will provide "temporary additional
service" for special duties and events at the request of DOT officials and that DOT shall
reimburse the contractor for services associated with such "non-recurring requirements"
using a government purchase card. It is not clear what additional security services, such as
those needed for vehicle inspections or to secure the many pedestrian entry points into DOT
Headquarters from the garage, may be required or whether the contract's non-recurring
requirements language would apply to security services that may be needed to facilitate
parking for 81 Nationals home games. Further, it may not be appropriate to use
government h d s or a government purchase card to pay for such services, which arguably
are not government-related.




l2   DOT Office 6f Financial Managanent and Tmsit Benefits Program pasonncl told us they issue more parking pamits
  than they ostensibly have available spaces for to help ensure maximum parking utilization, givm anployte alternative
  work schedules, ac.
" "Tandan" refers to a vehicle parked bumpa-to- bum^ directly behind another, while "stacked" refas to a vchicle
  parked papendicular behind one or more vehicles. Both situations require the assisma of a valet to retrieve the
  blocked vthiclc(s).

                                                FOR OFFICIAL USE ONLY
                   (Public availability to be dctmniaed unda 5 U.S.C.552, F d a of Infomation Act)

                  FOR PUBLIC RELEASE - ALL REDACTIONS MADE PURSUANT TO FOlA EXEMPTION 2
Reimbursement for Increased Costs. DOTIOS analysis identified cost recovery concerns
regarding DOT'S authority and ability to receive and use reimbursement for i n c r d costs
resulting h m implementation of the Nationals' proposal. Specifically, the proposal
envisioned the team reimbursing DOT for increased costs resulting from the proposal, such
as those associated with additional s d t y personnel. We confirmed that DOT does not
have the authority and ability to receive and retain these funds because Federal law and
government financial accounting requirements dictate that any money DOT might collect
be deposited directly into the U.S. Treasury General Fund account, not a DOT account.
The only exception is where there is specific statutory authority to do otherwise. Violating
this statute results in an improper augmentation of the agency's appropriation, and the
responsible official may be removed h m office.14

Federal EtlCics Principles and Standards Moy Be Compromised. DOT/OSYsanalysis
noted that allowing only federally employed Nationals season ticket holders to use the DOT
Headquarters garage may unintentionally result in or create the appearance of Federal
employees using their public office for private gain. Federal employees are held to high
standards to ensure that the American people can have confidence in the integrity of the
government and its operations. A core concept underlying Federal ethics principles and
standards is that employees shall not use public office for private gain or even create the
appearance of doing so. If implementation of the Nationals' proposal is ever reconsidered,
DOT'S Desiguated Agency Ethics Officer would need to determine whether the parking
privileges could be considered an allowable "gift" or would be viewed as being given
because of the Federal employee's official position, thus resulting in a violation of Federal
ethics requirements.

Conduct of Security-Related Background Checks DOTIOS analysis identified
administrative and legal concerns associated with security-related background checks
proposed by the N a t i o n a l ~ n c e r n sthat our review provided additional insights on.
Specifically, the Nationals' proposal envisioned DOT using available law enforcement and
commercial databases and other governmental and international agencies' records to
perfoxm background checks of the selected season ticket holders who would be allowed to
use the DOT Headquarters garage. The DOT/OS analysis concluded, in part, that this
would be an inappropriate use of appropriated f h d s (i.e., DOT employees' time), as this
would be done for a non-DOT business purpose. We found that DOT policy only allows
access to the garage with a DOT identification card (i.e., building pass). This card is only
issued to persons assigned to work at Headquarters on a regular basis or who require
frequent, unescorted access for DOT business purposes (e.g., contractors). These
individuals must successfully complete a security-related background investigation1' to
obtain a card.

To implement the Nationals' proposal, DOT personnel would have to determine whether
the selected season ticket holders had valid Federal identification cards and did not have


" S a 3 1 U.S.C.43302@):
  This cwld include the use of otha Fedual agarcy background investigations, subject to DOT confinnation that thest
  investigationsmet DOT requirements.

                                            FOR OFFICIAL USE ONLY
                (Public availabilityto be detamined unda 5 U.S.C. 552, Frudom of Information Act)

               FOR PUBLIC RELEASE -ALL REDACTIONS MADE PURSUANT TO FOlA EXEMPTION 2
suitability issues16that would prohibit them fiom gaining access to DOT Headqmers. In
addition, DOT would possibly have to create processes with an unknown number of other
Federal agencies to ensure it was notified about events such as resignation, retirement, or
disciplinary actions of non-DOT employees, as such events may affect eligibility for
recurring access to DOT Headquarters.

The Nationals' proposal also envisioned DOT conducting criminal history checks on
Nationals' personnel or contractors who might need access to DOT Headquarters to help
ensure security in umjunction with use of the garage. DOTIOS coordinated with the FBI
and determined it would be inappropriate to run National Crime Infomation Center VCIC)
checks on Nationals personnel for a non-DOT business purpose. We reviewed Federal
regulations17 that delineate how NCIC information is shared and determined no provision
exists that allows the FBI to disclose NCIC information on Nationals personnel for this
purpose.

If you have any questions or require fiuther assistance on this or any other matter, please
feel fkee to contact me at x61959 or the Deputy Inspector General, Theodore Alves, at
~66767.

cc:      Assistant Secretary for Administration
         Director, Office of Security




' Suitabilityrefers to identifiable characta trahand conduct sufficientto decide whether an individual is likely to handle
  the privileges granted to him ar ha with apppriate integrity?efficiency,and dfectiveness.
" S a 28 C.F.R 4 20.33 (2007).


                                              FOR OFFICIAL USE ONLY
                 (Public availability to be dctamined under 5 U.S.C. 552, F d o m of Information Act)

                FOR PUBLIC RELEASE -ALL REDACTIONS MADE PURSUANT TO FOlA EXEMPTION 2
